TAMARA R. CRAWFORD
TERENCE (TERRY) C. MCCARTHY
TAYLOR P. FRANKS

SCOT G. DOYEN*
WILLIAM T. SEBESTA
RANDALL J. POELMA, JR.
ANGELA M. HAHN

DOYEN SEBESTA & POELMA
*Board Certified – Civil Trial Law
Texas Board of Legal Specialization

ATTORNEYS AT LAW

WRITER’S DIRECT:
sdoyen@ds-lawyers.com
713.580.8902

December 1, 2019

Scott S. Harris
CLERK OF THE COURT
SUPREME COURT OF THE UNITED STATES
1 First Street, N.E.
Washington, D.C. 20543
Re:

Via E-Filing

Ali Ekhlassi v. National Lloyds Insurance Company (No. 19-312)

Dear Mr. Harris,
I am counsel of record for National Lloyds Insurance Company (“National Lloyds”),
Respondent in the above referenced matter. Pursuant to U.S. Supreme Court Rule 30.4, National
Lloyds requests an additional extension of time of four (4) days to file a brief in opposition to the
petition for certiorari filed in this case.
The petition for certiorari was filed on September 3, 2019, and placed on the docket
September 6, 2019. By prior unopposed motion, the time for filing the brief in opposition was
extended to December 2, 2019.
Respondent National Lloyds respectfully requests an additional extension of four (4) days
through Friday, December 6, 2019, to file its brief in opposition. I have conferred with Dan Geyser,
counsel of record for Petitioner Ali Ekhlassi, who stated Petitioner does not oppose this requested
extension. Thanking you for your courtesy in this regard, I remain,

PARAGON CENTER ONE ▪ 450 GEARS ROAD, SUITE 350 ▪ HOUSTON, TEXAS 77067
713.580.8900 TELEPHONE ▪ 713.580.8910 FACSIMILE
WWW.DS-LAWYERS.COM

Mr. Scott Harris
Clerk of the Court, SCOT
Re: Ali Ekhlassi v NLIC (No. 19-312)
December 1, 2019
Page 2 of 2

Very truly yours,
DOYEN SEBESTA & POELMA, LLLP
/s/ Scot G. Doyen
Scot G. Doyen
SGD/vlt

CERTIFICATE OF SERVICE
I certify that a true and correct copy of this request for additional extension of time was served
on the following counsel of record by the Electronic Filing Service provider on the 1st day of
December, 2019, addressed as follows:
Daniel L. Geyser
Geyser P.C.
One Energy Square
4925 Greenville Ave., Ste 200
Dallas, Texas 75206
(214) 800-2660
daniel.geyser@geyserpc.com
Todd Lipscomb
Loree & Lipscomb
The Terrace at Concord Park
777 E. Sonterra Blvd., Ste 320
San Antonio, Texas 78258
Erin Glenn Busby
Lisa R. Eskow
Michael F. Sturley
University of Texas School
of Law Supreme Court Clinic
727 East Dean Keeton Street
Austin, Texas 78705
(713) 966-0409
ebusby@law.utexas.edu

/s/ Scot G. Doyen
Scot G. Doyen

